NO. 19-764

In the Supreme Court of the United States
MARK SOKOLOW, ET AL.,
Petitioners,
v.
PALESTINE LIBERATION ORGANIZATION AND
PALESTINIAN AUTHORITY,

Respondents.

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

RESPONDENTS’ OPPOSITION TO MOTION FOR LEAVE TO FILE
AMICUS CURIAE BRIEF AND BRIEF OF
SENATOR CHARLES GRASSLEY, REPRESENTATIVE JERROLD
NADLER, REPRESENTATIVE ROBERT GOODLATTE (RET.),
SENATOR RICHARD BLUMENTHAL, SENATOR MARCO RUBIO,
REPRESENTATIVE THEODORE DEUTCH, SENATOR THOM TILLIS,
REPRESENTATIVE KATHLEEN RICE, AND SENATOR BILL NELSON
(RET.) AS AMICI CURIAE IN SUPPORT OF PETITIONERS

Gassan A. Baloul
Counsel of Record
SQUIRE PATTON BOGGS (US) LLP
2550 M Street, N.W.
Washington, D.C. 20037
(202) 457-6000
gassan.baloul@squirepb.com
January 21, 2020

Counsel for Respondents

This Court should deny the motion of Senator Grassley, et al., for
leave to file an amicus curiae brief in support of Petitioners. Section I of
the amicus brief does nothing but repeat the arguments in the Petition.
Indeed, it repeats the arguments that these same amici previously made
in support of Petitioner’s first petition for certiorari in this same case.
Section II of the amicus brief is similarly unhelpful because it goes to the
other extreme, by placing a new issue before the Court that is nowhere
in Petitioners’ question presented, and that Petitioners have not raised
despite the opportunity to do so in a timely supplemental brief.
1. The proffered amicus brief has nothing helpful to offer the Court.
Rule 37.1 encourages amici to bring new matter to the Court’s attention,
and states that briefs that do not serve this purpose burden the Court.
Unfortunately, the bulk of the amicus brief is dedicated to repeating the
arguments in the Petition regarding the interpretation of the AntiTerrorism Clarification Act of 2018, Pub. L. No. 115-253, 132 Stat. 31833185 (ATCA) and the application of Fourteen Amendment due process
standards to due process cases arising under the Fifth Amendment. This
is a double repetition because the amici are also repeating the same
jurisdictional arguments they made to this Court in prior amicus briefs
-2-

filed in support of Petitioner’s first petition for certiorari in this case. See
Br. for the U.S. House of Reps. as Amicus Curiae, Sokolow v. PLO, No.
16-1071 (Apr. 2017) (H.R. Br.); Br. of U.S. Senators Charles E. Grassley

et al. as Amici Curiae, Sokolow v. PLO, No. 16-1071 (Apr. 2017). Those
arguments have not aged well, as the new proposed amicus brief has far
less support from the House and Senate than did the prior amicus briefs.
The amici curiae, who are current and former senators and
representatives, repeat the legislative history in an apparent attempt to
create an “authoritative” spin on that history. But many of the amici

curiae have already made statements in the legislative history, and those
statements speak for themselves.

This Court does not need special

congressional help to read and understand legislative history—nor is
that history relevant given the clear language of the statute. Insofar as
the amicus brief also purports to set forth the interests and opinions of
the United States, this Court would be far better served by reviewing the

amicus curiae brief for the United States previously filed in this case by
the Solicitor General. See Br. for the United States as Amicus Curiae,

Sokolow v. PLO, No. 16-1071 (Feb. 2018) (recommending that the Court
deny certiorari).

Amici’s individual “political” perspectives on the
-3-

Petitioner’s legal arguments do not speak authoritatively for either the
House or the Senate, and are not helpful to the Court.
2. The proffered amicus brief also raises an entirely new statute
that was not raised in the Petition, and that Petitioners have not deemed
worthy of a timely supplemental brief discussing “new legislation” as
provided in Rule 15.8.

The amicus brief appears to read the new

legislation (enacted on December 20, 2019) as mooting the decision below,
a position at odds with both the statute itself and Petitioners’ continuing
silence on the issue. See Arizonans for Official English v. Arizona, 520
U.S. 43, 68 n.23, 117 S. Ct. 1055, 1069 (1997) (“It is the duty of counsel
to bring to the federal tribunal's attention, ‘without delay,’ facts that may
raise a question of mootness.”), quoting Bd. of License Comm'rs v.

Pastore, 469 U.S. 238, 240 (1985) (emphasis in original)
It is inappropriate for an amicus curiae to place an entirely new
statute before the Court that Petitioners themselves have not discussed,
and to suggest a result that Petitioners have not requested. Lalli v. Lalli,
439 U.S. 259, 262 n.3 (1978) (deciding not to reach an issue that was
“raised for the first time by a brief amici curiae in this Court”).

-4-

Respondents therefore ask this Court to deny the motion for leave
to file an amicus curiae brief.
Respectfully submitted,
s/ Gassan A. Baloul
Counsel of Record
SQUIRE PATTON BOGGS (US) LLP
2550 M Street, N.W.
Washington, D.C. 20037
(202) 457-6000
gassan.baloul@squirepb.com

Counsel for Respondents
January 21, 2020

-5-

